                  I
             \;




                      -
        -z
                      Closeout for M93120060

     This case was referred to OIG by 4-      - --




                                                               -
of NSF, on December 2 1993. He had received copies of two letters
from                     (the complainant) of the P-
-
,             at the                     -  H alleging misuse of
government funds. The letters were originally sent to Attorney
General Janet Reno and 1       -                president of the
        Foundation. The complainant has subsequently sent similar
letters directly to         and to Dr. James Duderstadt, Chairman
of the National Science Board. The corn~lainantalleses that

                                             (the second author),
                                       (the fourth author) , used
inappropriate criteria to-select research priorities in social
research. This report was sponsored in part by NSF, and the fourth
author is an NSF employee. The complainant further argues that
such criteria have been used more generally in decisions about
social science research at                                    (the
academy) .
     OIG contacted the complainant, who elaborated on his concerns
and provided additional documents to clarify the 'issues he was
raising.   The complainant believes that government funding for
social science research ought to go to projects with political
significance and scientific value. The complainant argues that the
scientific community should not reject politically significant and
scientifically valuable research projects because they would be
politically controversial and might adversely affect the prospects
for future social science funding. In the complainant's opinion,
the report appears to have made decisions about research priorities
in an inappropriate way. The complainant supplied us with several
academic papers and with copies of correspondence, including an
exchange of letters between him and the second author of the
report, that elaborate his point of view.
     The complainant's disagreement with the funding priorities
recommended in the report appears to be a normal intellectual
dispute about social and scientific priorities. When the second
author wrote to the complainant criticizing a research proposal
that the complainant had sent to the academy, the complainant
interpreted this as "backing off" in his scientific advice because
of political bias.      In the second author's letter to the
complainant, however, the second author agrees that the
complainant's proposal "raises questions that need analysis and
research" and that "a careful study along these lines would be
useful." The second author objects to the tone and style of the
proposal rather than to its content. The second author does not
indicate that political biases influenced his judgments, nor does
the complainant provide other evidence that such biases affected
the report's judgments about research priorities.
                           page 1 of 2
     The complainant is dissatisfied that the academy dismissed his
research ideas without a written statement of reasons. While
perhaps regrettable, this is not evidence of bias, much less
misconduct.
     The complainant clearly has serious reservations about the
current directions in which social science is heading and about the
research priorities of the elite agencies that fund basic social
science research. He provides no real evidence, however, that
these priorities are the product of anything other than judgments
about social needs and scientific value that the complainant does
not share.
     OIG advised the complainant that he could more effectively
pursue his general concerns by taking them up with officials at NSF
and elsewhere who are responsible for making policy decisions
concerning government funding of social science research.
     This case is closed and no further action will be taken.




Staff Scientist, Oversight
Concurrence:




Deputy Assistant Inspector General,
Oversight



 7                      ,/zsisy
James J. wofenik
Assistant Inspector General for Oversight




cc: Signatories
    Inspector General
                             page 2 of 2
